<html>
<title> - NUCLEAR SECURITY: CAN DOE MEET PHYSICAL FACILITY SECURITY REQUIREMENT</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





 NUCLEAR SECURITY: CAN DOE MEET PHYSICAL FACILITY SECURITY REQUIREMENT

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 27, 2004

                               __________

                           Serial No. 108-207

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-313                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
KATHERINE HARRIS, Florida            JOHN F. TIERNEY, Massachusetts
                                     DIANE E. WATSON, California

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                  J. Vincent Chase, Chief Investigator
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 27, 2004...................................     1
Statement of:
    Brooks, Linton F., Administrator, National Nuclear Security 
      Administration, Department of Energy; and Glenn S. 
      Podonsky, Director, Office of Security and Safety 
      Performance Assurance, Department of Energy................    46
    Nazzaro, Robin M., Director, Natural Resources and 
      Environment, U.S. General Accounting Office, accompanied by 
      James Noel, Assistant Director, National Resources and 
      Environment, U.S. General Accounting Office; and Danielle 
      Brian, executive director, Project on Government Oversight.     5
Letters, statements, etc., submitted for the record by:
    Brian, Danielle, executive director, Project on Government 
      Oversight:
        Memo dated April 9, 2004.................................    30
        Prepared statement of....................................    32
    Brooks, Linton F., Administrator, National Nuclear Security 
      Administration, Department of Energy:
        Information concerning current designs...................    94
        Prepared statement of....................................    50
    Nazzaro, Robin M., Director, Natural Resources and 
      Environment, U.S. General Accounting Office, prepared 
      statement of...............................................     8
    Podonsky, Glenn S., Director, Office of Security and Safety 
      Performance Assurance, Department of Energy, prepared 
      statement of...............................................    66
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3

 
 NUCLEAR SECURITY: CAN DOE MEET PHYSICAL FACILITY SECURITY REQUIREMENT

                              ----------                              


                        TUESDAY, APRIL 27, 2004

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays and Watson.
    Staff present: Lawrence Halloran, staff director and 
counsel; J. Vincent Chase, chief investigator; Thomas Costa, 
professional staff member; Robert Briggs, clerk; Jean Gosa, 
minority assistant clerk; and Andrew Su, minority professional 
staff member.
    Mr. Shays. I call this hearing of the Subcommittee on 
National Security, Emerging Threats and International Relations 
to order.
    Today, we continue our oversight of physical security at 
the Nation's nuclear weapons facilities. Last June, we learned 
the Department of Energy [DOE], was not aggressively 
confronting the many challenges posed by the need to secure a 
sprawling, aging infrastructure against post-September 11th 
threats.
    So we asked the GAO to evaluate the development and 
implementation of the new security standard called the design 
basis threat [DBT].
    The GAO report released today finds some progress, but 
concludes the new DBT may not be as realistic, rigorous, or 
real-time as needed to protect nuclear materials from 
determined terrorists.
    Without question, DOE nuclear warhead production plants, 
testing facilities, research labs, storage locations, and 
decommissioned sites are attractive targets for terrorists 
determined to turn our technology against us and willing to die 
while doing so. The highly enriched uranium and plutonium held 
at various locations could be used as the core of an improvised 
nuclear device or dispersed as a radiological weapon.
    Yet, it took almost 2 years and an inexplicably and 
inexcusably long time to update the DBT after September 11th.
    Faced with a new security imperative to deny access, not 
just contain or catch intruders, it should have been 
immediately obvious DOE has too many facilities housing nuclear 
materials. And those facilities are old, above ground, 
scattered around cluttered World War II era plant 
configurations and not buffered by adequate setback space.
    It may not be enough just to harden existing sites with 
more gates, guns, and guards. Consolidation of nuclear material 
storage, long advocated, but little pursued at DOE, would 
improve security by reducing the number of sites and the cost 
of protecting them.
    New security technologies will have to be evaluated and 
deployed to meet emerging threats. But as we will hear in 
testimony today, a serious question remains whether the DBT 
adequately reflects the true nature of the threat. Some believe 
the design basis threat might be more accurately called the 
dollar-based threat, reflecting only a watered down measure of 
how much security the Department can afford. Additionally, GAO 
doubts DOE will be able to fully implement even that standard 
before 2009. We know that terrorists will not wait that long to 
try to exploit lingering vulnerabilities in our nuclear complex 
defenses.
    Last month, DOE announced a plan to move some nuclear 
material from Technical Area 18 at the Los Alamos National 
Laboratory to a more secure facility in Nevada. Implementation 
of that plan will demonstrate a sharper focus and renewed sense 
of urgency at DOE and the National Nuclear Security 
Administration [NNSA], but we need to be sure that 
consolidation is just the most visible part of a broad 
strategic effort to implement a realistic DBT.
    Charged by law to sustain the Nation's nuclear deterrent 
capabilities, DOE and NNSA have the unenviable task of 
balancing the demands of that mission against the risks and 
costs of meeting security threats in a new and dangerous era. 
Our oversight seeks to ensure that balance is struck as openly 
and as effectively as possible so that nuclear security, 
Homeland Security, and national security will be enhanced. 
Those are goals shared by all our witnesses, and we are 
grateful for their participation in this hearing. We welcome 
them, and we look forward to their testimony.
    [Note.--The GAO report entitled, ``Nuclear Security, DOE 
Needs to Resolve Significant Issues Before It Fully Meets the 
New Design Basis Threat,'' may be found in subcommittee files.]
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T6313.001
    
    [GRAPHIC] [TIFF OMITTED] T6313.002
    
    Mr. Shays. At this time, I will recognize and then swear in 
Robin M. Nazzaro, Director, National Resources and Environment, 
U.S. General Accounting Office, accompanied by James Noel, 
Assistant Director, National Resources and Environment, U.S. 
General Accounting Office. And Danielle Brian, executive 
director, Project On Government Oversight. At this time, if you 
would stand.
    Is there anyone else that possibly would be responding? If 
so, I would like for them to stand to be sworn in just in case.
    [Witnesses sworn.]
    Mr. Shays. Note for the record our witnesses have responded 
in the affirmative.
    We will basically have a statement by Director Nazzaro, and 
then we will invite Mr. Noel and Ms. Brian to respond to 
questions as well.
    Excuse me. We do have testimony? I'm sorry, I apologize.
    So Mr. Noel, you are the only one who does not have 
testimony but will respond to questions. Is that correct?
    Mr. Noel. Correct.
    Mr. Shays. OK. Thank you. I will get it together here.
    Welcome.

STATEMENTS OF ROBIN M. NAZZARO, DIRECTOR, NATURAL RESOURCES AND 
  ENVIRONMENT, U.S. GENERAL ACCOUNTING OFFICE, ACCOMPANIED BY 
    JAMES NOEL, ASSISTANT DIRECTOR, NATIONAL RESOURCES AND 
   ENVIRONMENT, U.S. GENERAL ACCOUNTING OFFICE; AND DANIELLE 
   BRIAN, EXECUTIVE DIRECTOR, PROJECT ON GOVERNMENT OVERSIGHT

    Ms. Nazzaro. Thank you, Mr. Chairman.
    I am pleased to be here today to discuss our report that 
you are issuing entitled, ``Nuclear Security: DOE Needs to 
Resolve Significant Issues Before It Fully Meets the New Design 
Basis Threat.''
    A successful terrorist attack on a site containing nuclear 
weapons or the material used in nuclear weapons could have 
devastating consequences. Because of these risks, DOE needs an 
effective safeguards and security program. A key component of 
such a program is the design basis threat [DBT], which is a 
classified document that identifies the potential size and 
capabilities of terrorist forces and is based on the postulated 
threat and intelligence community assessment of potential 
terrorist threats to nuclear weapons facilities.
    Following the September 11, 2001, terrorist attacks, you 
asked us to review physical security at DOE sites that have 
Category I special nuclear material. These material include 
specified quantities of plutonium and highly enriched uranium.
    Last year, I testified before this subcommittee that while 
DOE took immediate steps to improve security in the aftermath 
of the September 11th terrorist attacks, DOE's effort to 
develop and issue a new DBT took almost 2 years.
    Today, I would like to focus on the implementation of the 
new DBT that was issued in May 2003. Specifically, my testimony 
focuses on our analysis of the higher threat contained in the 
new DBT and the remaining issues that we feel need to be 
resolved in order for DOE to fully defend against the threat 
contained in the DBT.
    With respect to our analysis of the 2003 DBT, we have two 
areas of concern. First, while we found that the new DBT is 
substantially more demanding than the previous one, the threat 
contained in the 2003 DBT is less than the threat identified in 
the postulated threat. Or, in other words, DOE is preparing to 
defend against a significantly smaller group of terrorists. 
Only for its sites and operations that handle nuclear weapons 
is DOE currently preparing to defend against an attacking force 
that approximates the lower range of the threat identified in 
the postulated threat.
    For its other Category I special nuclear material sites, 
which may have improvised nuclear device concerns that, if 
successfully exploited by terrorists, could result in a nuclear 
detonation, DOE is only preparing to defend against a terrorist 
force that is significantly smaller than was identified in the 
postulated threat.
    Our second concern with the DBT is that the Department's 
criteria for determining the severity of radiological, 
chemical, or biological sabotage may be insufficient. For 
example, the criterion used for protection against radiological 
sabotage is based on acute radiation doses received by 
individuals. This may not fully capture or characterize the 
damage that a major radiological disposal might cause. For 
example, a worst-case analysis at one DOE site showed that 
while radiological dispersal would not pose immediate, acute 
health problems for the general public, the public could 
experience measurable increases in cancer mortality over a 
period of decades after such an event. Moreover, releases at 
the site could also have environmental consequences requiring 
hundreds of millions to billions of dollars to clean up and 
affect the habitat of people who live within 10 miles of the 
sight.
    Now, let me highlight the issues that we feel need to be 
resolved in order for DOE to fully defend against the threat 
contained in the new DBT. To date, DOE has not developed any 
official estimates of the overall costs of DBT implementation. 
More importantly, current DBT implementation cost estimates do 
not include items such as closing unneeded facilities, 
transporting and consolidating materials, completing line-item 
construction projects and other important activities that are 
outside the responsibility of the Safeguards and Security 
Programs budget. Finally, complicating the issue is the fact 
that the Secretary has not yet designated as called for in the 
new DBT which, if any, of DOE sites have improvised nuclear 
concerns. If a site is designated to have such a concern, it 
may be required to shift to a more demanding and costly 
protection strategy.
    Bottom line, DOE is unlikely to meet its own fiscal year 
2006 deadline for full implementation of the new DBT. Some 
sites estimate that it could take as long as 5 years given 
adequate funding.
    In our report, we made seven recommendations to the 
Secretary of Energy that are intended to strengthen DOE's 
ability to meet the requirements of the new DBT, improve the 
Department's ability to deal with future terrorist threats, and 
to better inform Congress on departmental progress in meeting 
the threat contained in the DBT and reducing risks to critical 
facilities at DOE sites.
    Mr. Chairman, that concludes my statement. I would be happy 
to respond to any questions you may have.
    [The prepared statement of Ms. Nazzaro follows:]

    [GRAPHIC] [TIFF OMITTED] T6313.003
    
    [GRAPHIC] [TIFF OMITTED] T6313.004
    
    [GRAPHIC] [TIFF OMITTED] T6313.005
    
    [GRAPHIC] [TIFF OMITTED] T6313.006
    
    [GRAPHIC] [TIFF OMITTED] T6313.007
    
    [GRAPHIC] [TIFF OMITTED] T6313.008
    
    [GRAPHIC] [TIFF OMITTED] T6313.009
    
    [GRAPHIC] [TIFF OMITTED] T6313.010
    
    [GRAPHIC] [TIFF OMITTED] T6313.011
    
    [GRAPHIC] [TIFF OMITTED] T6313.012
    
    [GRAPHIC] [TIFF OMITTED] T6313.013
    
    [GRAPHIC] [TIFF OMITTED] T6313.014
    
    [GRAPHIC] [TIFF OMITTED] T6313.015
    
    [GRAPHIC] [TIFF OMITTED] T6313.016
    
    [GRAPHIC] [TIFF OMITTED] T6313.017
    
    [GRAPHIC] [TIFF OMITTED] T6313.018
    
    [GRAPHIC] [TIFF OMITTED] T6313.019
    
    [GRAPHIC] [TIFF OMITTED] T6313.020
    
    [GRAPHIC] [TIFF OMITTED] T6313.021
    
    Mr. Shays. Thank you very much.
    Ms. Brian, would you just explain what your organization is 
for the record?
    Ms. Brian. Yes. We are an independent nonprofit government 
watchdog organization.
    Mr. Shays. Thank you.
    And at this time I would want to just thank the 
Administrator Linton Brooks and Glenn Podonsky, because they 
could have asked to go first. And I think it's important that 
the concern be expressed and then have them be able to respond 
to it. So it's logical to have them follow.
    But I just want, Ms. Brian, for you to know that you are 
able to speak first because they have agreed to it. And I thank 
them for that.
    And it's very nice to have you here.
    Ms. Brian. And I thank you for having me here as well, 
chairman.
    If you could please enter my written testimony in the 
record.
    Mr. Shays. That will be done.
    Ms. Brian. POGO is heartened that this committee has 
remained so active in overseeing the nuclear weapons complex 
and its ongoing security challenges.
    I must say, at your previous hearing, though, I was 
relatively pessimistic that we would ever be successful in 
gaining any real security improvements from DOE. Since then, 
however, POGO has become more guardedly optimistic.
    We had the opportunity to meet with Secretary Abraham, 
Deputy Secretary McSlarrow, and SSA Director Podonsky this 
January.
    We began in that meeting ongoing communication with the 
Secretary regarding our concerns and recommendations. We have 
reason to believe he is taking these issues seriously. Our best 
evidence of that is the recent announcement that Los Alamos' 
TA-18 is finally going to be deinventoried of its special 
nuclear materials.
    Mr. Shays. You can slow down just a little bit. You can run 
over 5 minutes.
    Ms. Brian. I can? OK. Thank you.
    Furthermore, the new design basis threat and requirement 
that all Category I sites be able to prevent terrorists from 
even entering the facility will require major changes in 
defensive strategies and upgraded infrastructure.
    In the face of these requirements, these sites can no 
longer apply Band-Aids to the security problems. DOE simply no 
longer has the luxury of having SNM, special nuclear materials, 
at sites that can't be adequately protected or where the costs 
of protection are prohibitive. This is a critical turning point 
in the direction of the nuclear weapons complex.
    The Department has to immediately begin to deinventory 
certain sites, transferring the SNM to more secure sites; build 
underground storage facilities at Savannah River and Y-12; and 
blend down the excess highly enriched uranium and immobilize 
the excess plutonium. These steps would make the nuclear 
materials far less attractive to terrorists.
    In addition to highlighting the urgent need to move the SNM 
from TA-18, we raised several other priorities for the 
Secretary's consideration. This winter, POGO began focusing on 
security at two additional NNSA sites, Lawrence Livermore 
National Lab just east of San Francisco, and the Y-12 plant in 
Oak Ridge, TN. Both face serious physical security challenges, 
perhaps insurmountable challenges.
    We don't feel comfortable discussing publicly the specific 
concerns we have regarding Livermore security. However, we can 
say that the encroaching residential community surrounding 
Livermore has made it nearly impossible to properly protect the 
SNM stored there. Clearly, they will not be able to comply with 
the new directives.
    In light of this facility's vulnerabilities, POGO 
recommends that all SNMs be deinventoried from Livermore 
immediately and sent to the Nevada test site. This move would 
dramatically increase security while saving about $30 million 
in annual security costs.
    Some in DOE and the Congress have identified Y-12 as the 
most serious security concern in the complex. Y-12 stores 
hundreds of tons of highly enriched uranium and is a prime 
target for terrorists who would want to create an improvised 
nuclear devise within minutes. Given the obsolete 
infrastructure currently housing the highly enriched uranium, 
it should come as no surprise that the Y-12 guard force has 
been systemically cheating in order to pass security 
performance tests. They simply cannot protect the material in 
the six material access areas given the multiple targets, 
dilapidated infrastructure, and very short timelines for the 
terrorists to reach their target.
    The current contractor operating Y-12, BWXT, inexplicably 
changed a plan to build a bermed facility that would be covered 
by earth on three sides and its roof and is now planning to 
build an above-ground facility. However, the IG has concluded 
that the new design for the storage facility will actually 
decrease security and increase costs significantly.
    Immediate funding for underground storage at Y-12 and the 
blending down of the over 100 tons of excess highly enriched 
uranium should be the top priorities of the NNSA budget.
    There have also been significant security problems at 
Sandia National Lab in Albuquerque, NM. The only weapons 
quantities of SNM stored at Sandia are the highly enriched 
uranium fuel plates for the SPR-III burst reactor. This reactor 
is rarely used. Moving this reactor and its fuel to the Nevada 
test site again would dramatically reduce security requirements 
and save about $30 million annually in security costs.
    In addition, the Idaho facilities store tons of SNM, the 
second largest repository of highly enriched uranium in the 
complex. These nuclear materials are left over from the cold 
war and abandoned research projects. They have no current 
national defense mission. These facilities should also be 
deinventoried of weapons quantities SNM.
    POGO sources have suggested that the DBT at most sites 
remains inadequate as, of course, the GAO is testifying today, 
far below the level of security recommended by the intelligence 
community, particularly at sites with improvised nuclear device 
vulnerabilities.
    As the GAO pointed out in its report presented at your last 
hearing, the DBT was, of course, cost-driven. The GAO wrote, 
``Some officials called the DBT the funding basis threat, or 
the maximum threat the Department could afford.'' As you said 
in your testimony, this is not an acceptable method for 
determining security standards. The DBT should be reevaluated 
to bring it more in line with the realistic threat contained in 
the intelligence community's postulated threat, particularly 
for IND vulnerable sites.
    A final note regarding the TA-18 move. POGO is concerned 
that there are people in the complex who are still trying to 
sabotage this move. While POGO was heartened by the original 
announcement regarding the move, our hopes were dampened after 
meeting with the head of the nuclear weapons complex, Dr. 
Everet Beckner. Despite Secretary Abraham's intentions that all 
Category I special nuclear materials should be out of TA-18 by 
2005, Dr. Beckner informed us that NNSA only intends to move 50 
percent of it. I have provided to your staff a memo that 
confirms this is his intention.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6313.022
    
    Ms. Brian. In a separate meeting, Ambassador Brooks told us 
that moving only part of the material would not improve 
security at all. This is, of course, because enough material 
would remain behind to still create an improvised nuclear 
device.
    Dr. Beckner went on to inform us that the ballooning cost 
for this move from $100 million to $300 million was in large 
part, a result of the requirement to produce authorization 
basis documents to move the burst reactors from Los Alamos and 
to operate them at the Nevada test site. He told us this 
paperwork requirement alone would cost $150 million. We checked 
with the person in the Los Alamos area office who is 
responsible for signing off on such documents. He estimated the 
cost to be between $1 and $2 million if done correctly, and as 
much as $6 million on the outside if it needs to be reworked.
    I am raising this to illustrate how the bureaucracy 
knowingly provides baseless information to headquarters as a 
way of protecting the status quo. It is essential that the 
committee straighten out this confusion today during this 
hearing.
    POGO is guardedly optimistic that Secretary Abraham and 
Deputy Secretary McSlarrow are sincerely concerned about the 
state of security at the nuclear weapons complex. However, 
these officials have a limited time in office.
    The Office of Security and Safety Performance Assurance 
will be the entity left behind to oversee any improvements. 
This office is doing extremely important work, but their 
limitation is that they do not have either the necessary 
independence or power to see this difficult job done correctly.
    Congress needs to formalize its communications with this 
office as it has with the Inspector General. Your ongoing 
hearings are critically important, and I fully believe that 
this committee's vigilance has played a vital role in moving 
the ball forward. Don't go anywhere, though, because the 
country is not more secure yet. Thank you.
    [The prepared statement of Ms. Brian follows:]

    [GRAPHIC] [TIFF OMITTED] T6313.023
    
    [GRAPHIC] [TIFF OMITTED] T6313.024
    
    [GRAPHIC] [TIFF OMITTED] T6313.025
    
    [GRAPHIC] [TIFF OMITTED] T6313.026
    
    Mr. Shays. Thank you very much.
    We will start out by having the counsel ask some questions.
    Mr. Halloran. Thank you.
    To GAO, I would like to talk about the DBT development 
process a little bit. In your statement, in the report, you say 
one of the reasons it took almost 2 years to reiterate the DBT 
after September 11 was due to sharp debates within DOE and 
other Government organizations over the size and capabilities 
of future terrorist threats and the availability of resources 
to meet those threats. Could you talk some more about that? 
What other organizations, Government organizations, were 
involved? And what were the kind of parameters of the debate?
    Mr. Noel. Well, there were two debates that we are talking 
about in the report. One is the----
    Mr. Shays. Bring the mic a little closer to you, please.
    Mr. Noel. There we go. My apologies.
    Two debates. One is within the intelligence community that 
was developing the postulated threats. So when we reviewed the 
documents there and interviewed the participants, they all said 
that it was a lot of concern within the Department of Defense 
and the Department of Energy about how big a threat should we 
postulate and what can we afford. And when you look at the 
postulated threat there is in fact a range of adversaries that 
is postulated there.
    Paralleling that, mirroring that, was a similar debate 
within the Department of Energy, and we looked at that a lot 
more closely because that was basically the charge of our 
report. And in that case, we interviewed officials at all the 
different sites, both DOE and contractor officials. We reviewed 
documents that were sent in by the contractors and site 
officials, and we talked to headquarters people. And here again 
we found a broad consensus that underlying the debate was, 
``Geez, can we really afford what we are talking about?''
    Our concern is that the threat needs to be the threat, and 
then the issue of budget comes in as a secondary issue to say, 
``If we can't afford this, are we willing to accept a certain 
amount of risk?'' And the Department's processes do allow for 
that.
    Mr. Halloran. But is it your finding that the differential 
between the level of threat postulated by the intelligence 
community and the level of threat reflected in DBT was 
artificially discounted? Or are there other legitimate reasons 
to say that, in terms of our design basis threat and the 
facilities and the shape and the configuration of the complex, 
this is realistically what we need to be able to fend off?
    Mr. Noel. Well, we never found that, in fact, somebody 
said, ``Let's make it smaller, specifically because of a dollar 
amount.'' What we did find, though, was that the postulated 
threat does say that each implementing agency--so that would be 
the Department of Energy, the Department of Defense--is allowed 
to use its own judgment in how it implements it.
    The key here, though, is if you look at history, if you 
look at the past postulated threats back through time, and this 
process has been around quite a while, there was always a one-
to-one relationship between the postulated threat and the 
design basis threat. In this case, the Department decided to 
depart from that, and that's what we are taking issue with them 
on in our report as to why.
    Mr. Halloran. All of you. In a matter of implementation of 
the DBT, you found a report that the time lines seem 
unrealistic. Could you tell us, explain more why that might be 
the case? And what are the disconnects that would make them not 
meet their target even at the end of fiscal 2006, I think, is 
the projection right now?
    Ms. Nazzaro. Well, I think our concern overall is that it 
took them so long to develop. I mean, adversaries move very 
quickly, and they adapt very quickly. The 1999 DBT was to be 
for 5 years, and that was obsolete within 2 years because of 
the September 11th attacks. You know, then it takes us 2 years 
to develop a new DBT, and we are still years away from full 
implementation of that.
    A faster process is definitely needed. We found the process 
that DOE used as far as consensus to formulate policy was very 
cumbersome and time-consuming.
    Mr. Halloran. The implementation plans for the DBT, they'd 
come out in May 2003. Is that the right, the DBT? And the 
implementation plans were submitted or received in January of 
this year?
    Mr. Noel. Correct.
    Mr. Halloran. And what can you tell us about those?
    Mr. Noel. Well, we reviewed the plans for the Office of 
Environmental Management and the National Nuclear Security 
Administration. I think--and Mr. Podonsky can talk to this--I 
think his office had some concerns about the quality of the 
material in the plans and some of the assumptions that were 
being made in the plans.
    Beyond that, depending on what happens with the Secretary's 
special annex team, some of those plans may need to be 
revisited. And that's going to stretch out that time line even 
longer.
    Mr. Halloran. Because of the improvised device kind of 
overlay they are putting out?
    Mr. Noel. That is what the special team is addressing, yes.
    When we were at the sites and one of the things we asked 
fairly early on is, how long does it typically take you to come 
up with a new plan and implement it? And this would be not in 
the environment that we are in now. And they said 2 to 5 years. 
And that was a broad consensus across the complex. So that's 
why we said we are not optimistic that they could make the 2006 
date.
    Ms. Brian. I would just like to add to that, first of all, 
I mean, obviously, 2006 is ridiculous to be waiting that long 
when we had 2001. That's 5 years of actually implementing 
improvements.
    But perhaps more realistically, what we are finding is if 
we are talking about the complex as it currently exists, it is 
simply impossible for these facilities to actually implement 
the requirements necessary between the DBT and this move toward 
a denial strategy, which we think is incredibly important. They 
can't do it. So something is going to have to significantly 
change.
    Mr. Halloran. Let's stay with that, because in your 
testimony, you talked a great deal about the Y-12 storage 
facility and the IG report. What, in your view, drove the 
decision to change from the berm facility to a strictly above-
ground one?
    Ms. Brian. We have asked the contractor. They didn't have 
an answer. I can't speculate as to their motivation, but the 
conclusion is that what we are faced with now is a facility 
that is going to be more expensive and less secure. And I think 
the Congress has to step in and do something to stop this 
before they start actually moving earth in the wrong direction, 
because as we know, it's very hard to stop something once it's 
started.
    Mr. Halloran. Does GAO have a view on that?
    Mr. Noel. Yes, just to add to what Ms. Brian is saying. The 
key here is that the DBT says any new facilities must meet all 
the requirements of the DBT. If it's an existing facility, 
certain requirements don't necessarily have to be met. So I 
think the IG's finding is very significant because it suggests, 
and we can't talk about all of this here, that this new 
facility isn't going to meet the standard that was just put out 
last May.
    Mr. Halloran. OK. What's the significance of the TA-18 
move?
    Ms. Brian. It's the first step toward actually increasing 
security, an actual physical move to take materials out of a 
part of Los Alamos that is at the bottom of the canyon, which 
has been time and again proven to be an absolutely ridiculous 
place to be storing nuclear materials. And so by finally moving 
it, we are getting somewhere and actually making the space more 
secure.
    Now, the problem is the people in charge of implementing it 
seem to have a different agenda from the Secretary. And I am 
hoping that this committee will be able to get a commitment 
from NNSA today that they actually intend to move all of it.
    Mr. Halloran. Is it your sense, any of you can answer, that 
one of the kind of political dynamics here is that possession 
of special nuclear material is a budget credential, an 
institutional credential, it is something you want to keep and 
makes you less BRAC-able, as it were? What drives the need to 
keep the stuff when it's not being used?
    Ms. Brian. There does seem to be sort of an emotional 
attachment by these facilities to these materials that I think 
they--honestly, I think it comes down to feeling less important 
if you don't have them.
    Ms. Nazzaro. And one other issue that we have heard is that 
it does make it more difficult for the scientists. If you have 
the materials onsite, it is certainly easier for them to 
conduct their research.
    Ms. Brian. Many of these facilities aren't actually using 
the materials for experiments at all, though.
    Ms. Nazzaro. But our conclusion also, as far as a short-
term action, was that DOE needs to consolidate some of these 
special nuclear materials.
    Mr. Halloran. Could you go down your recommendations, and 
explain, flesh them out a little more for us, and give us a 
sense of priority in which you think would be the most urgent 
and which could be a longer-term goal?
    Ms. Nazzaro. We certainly would like to see DOE address 
outstanding issues that we have raised with the current DBT, 
particularly as it relates to the improvised nuclear devices.
    But I think, in a longer term, what you really need is a 
Department-wide implementation plan. This, you know, activity 
involves more than NNSA. You need EM to be involved as well as 
Transportation Security Agency.
    Mr. Halloran. And construction is a separate pot of money, 
too, right? And it has to be integrated?
    Mr. Noel. Correct.
    Ms. Nazzaro. And that's what's missing right now. I mean, 
you have budget numbers in the current budget. But without a 
plan, I mean, this is only a down payment. We have no idea what 
its going to take to have full implementation of the DBT and 
what it's going to cost.
    The other thing is we feel it is very important for them to 
inform you all, Congress, on what they are doing as far as the 
status and their strategies for implementation. I mean, this is 
going to take a lot of resources. It is going to be a costly 
venture.
    Ms. Brian. Well, it's actually, obviously, we agree that it 
is going to be tremendously costly to implement the DBT given 
the complex as it exists. And that's one of the arguments for 
consolidating is that, in the long run, it would save money 
tremendously, because you could reduce the security 
requirements. Besides if you move the SNM, you don't have to 
have that level of security anymore.
    Mr. Halloran. Your first recommendation talks about 
evaluating the cost effectiveness of existing SECON, security 
conditions. And what's your concern there?
    Ms. Nazzaro. Well, last year, if you recall, DOE did take 
some immediate actions to respond to the September 11th 
attacks. And one of the primary methods was when the SECON 
level increased to put additional protective forces in place. 
That's a very costly exercise, and they did not have adequate 
resources to do that immediately, so there was a lot of 
overtime, which not only took a toll as far as financial 
constraints but also in the protective forces themselves. You 
know, they didn't get the training they needed. The fatigue set 
in, you know. There were a lot of downsides to that strategy.
    Mr. Halloran. Well, that's the point that Ms. Brian raised 
in terms of the personnel force. Did you get a sense in terms 
of the DBT implementation plans that the first reaction was to 
throw bodies at the problem, and bodies that we may not have or 
we may wear out?
    Ms. Nazzaro. Well, that was certainly one of their first 
strategies, and we do still think that protective force is a 
key element.
    But we also suggested the increased use of technologies as 
alternatives to just the protective force that can help in this 
exercise?
    Mr. Noel. I think you need to recognize, though, that at 
least in the short run, and short run is probably during the 
timeframe that we are talking about here, putting more guards 
on these materials is really the only solution. And if you try 
to do it with too much overtime, you really lose the 
effectiveness of your guard force. For these people, standing 
there, watching the material is what they do pretty much all 
day long, and where you ensure that they are effective and that 
they are well trained is through the training exercises. If you 
have too much overtime, those exercises just don't occur.
    Ms. Brian. And I would like to add to that point. I think 
Mr. Podonsky would be able to speak to a review he has done of 
the guard force across the complex. But in our investigations, 
we found that, at Livermore, you have the guards who are 
working extraordinary hours, terrible morale problems. At Oak 
Ridge, you have guards who are working 70-hour workweeks for 
weeks on end. Most of them don't have time for training. So I 
think you have a tremendous problem with the guard force.
    Mr. Halloran. Let's talk about the EM sites for a minute, 
if we could. It strikes me that as we succeed--and I think 
progress has been made, as you noted in your report. In kind of 
hardening the weapons facilities, the EM sites might become 
more attractive, and yet they don't seem to be a priority. It's 
a tough call. I mean, you don't want to spend all kinds of time 
and money hardening your places that you hope to make go away 
sooner or later. That's the more difficult balance overall, I 
think. What are the unique challenges posed by the EM sites at 
this point?
    Mr. Noel. The EM sites have the same kinds of materials 
that the NNSA sites do, so they have to be treated, in the end, 
in the same way.
    But you are correct in observing that if you are trying to 
close something down, you don't want to hire a lot of guards 
that you are going to lay off 2 years later, especially since 
it takes a very long time to clear the personnel and to 
adequately train them.
    So at some point in time, there is a tradeoff that is going 
to have to be made between cost and risk. And this is why we 
think it is really important, as we made in our last 
recommendation, for the Department to inform the Congress of 
these kinds of decisions so that the decision is made carefully 
and is well considered. And that's, basically, the sooner you 
can get these things closed, the sooner you can get that 
material moved, the better off you are going to be, the more 
secure those sites are going to be.
    Ms. Nazzaro. And we are not saying that there will never be 
any risks. You know, risk is probably going to be a fact of 
life. But you need to have a measured risk, and you need to 
know what those risks are and what efforts we need to take to 
mitigate them to the best we can.
    Mr. Halloran. My final question. Both testimonies talked 
about the need to kind of reassess or reevaluate the DBT. And I 
have to hope and assume you are not talking about launching 
another 2-year process to reiterate this thing. So could you be 
more specific in terms of what reevaluation might entail and 
what we could be doing in the meantime?
    Ms. Nazzaro. Well, I think our primary point is one that 
Mr. Noel made just a few minutes ago, was that we are really 
concerned that DOE is not treating nuclear materials in the 
same way they are treating nuclear weapons. So that would be 
something that we would want immediate attention given to.
    Also, the new DBT has identified additional threats in 
radioactive, chemical, and biological agents. In that area, 
there is no criteria as to their standards to defend to. In the 
area of chemical facilities they have said they are going to 
develop strategies to defend to industry standards. At this 
time there are no industry standards.
    Mr. Halloran. So on what basis do they say that? I mean, 
how do they say that then? What do they think they are 
referring to?
    Mr. Noel. Well that's not really clear to us, and that's 
why we kind of put it back on them. This is their design basis 
threat. But I think there are standards. They have done a lot 
of research.
    For example, I think, probably in the radiological area, 
they are furthest along. There is a lot of knowledge, about a 
lot of modeling, that is done at these sites of if there was an 
accidental release what the consequences would be. So you could 
use that information to basically better inform the standards 
that you are applying, rather than just simply say, ``If 
anybody gets killed right on the site, we have a problem,'' 
because the problem is obviously much bigger than that.
    Ms. Brian. We would also obviously--if DOE is willing to 
recognize that this DBT isn't adequate, which they haven't done 
yet, and they move up the implementation of the current DBT to 
being much sooner than 2006, with the recognition that the 
facilities are expected to have an either--a greater DBT in the 
near future. I think waiting until 2006 is one of the biggest 
problems we have, because we are not seeing a lot of activity. 
I think they are hoping that people will forget, 
administrations will change, and they can get back to the way 
things always were.
    Mr. Shays. Thank you. I may ask the same question a 
different way, but it will help me understand it. We have 
production plants, test facilities, research labs, storage 
locations, and decommissioned sites. Have I left anything out? 
Production plants, testing facilities, research labs, storage 
locations, and decommissioned sites.
    Ms. Nazzaro. And the Office of Secure Transportation.
    Mr. Shays. Right. Which gets the plutonium and enriched 
uranium and the other materials of the weapons from one site to 
another site.
    Mr. Noel. As well as the weapons themselves.
    Ms. Nazzaro. And transports the weapons from DOD to DOE.
    Mr. Shays. It's a transportation issue--and that office--
you all were only weighing in on the design basis threat. 
Correct? In your report?
    Ms. Nazzaro. Yes.
    Mr. Shays. So you were not looking at the logic--well, let 
me ask it this way. I happen to believe we have too many sites, 
and I believe we have too many sites for political reasons. And 
we have too much, too many structures on each site, and that's 
a cost issue. Do you disagree with either of my conclusions?
    Ms. Nazzaro. I would say, no, we do not disagree as far as 
nuclear materials.
    Now, we did not assess whether DOE has too many sites. But 
as far as nuclear materials, we feel that a first step is for 
DOE to consolidate some of those materials, that would help it 
in reducing the cost of the implementation.
    Ms. Brian. We have taken the same position, that we are 
really just looking at the cost of having the materials in so 
many sites.
    Mr. Noel. And I think what Robin is saying is, you can 
consolidate materials within sites and then visit the broader 
issue of consolidating the sites themselves.
    Mr. Shays. Have you done any research that shows that we 
need so many sites?
    Mr. Noel. No.
    Ms. Nazzaro. No.
    Mr. Shays. Is there any logic for why we need so many 
sites?
    Ms. Nazzaro. You could look at history. I mean, that's what 
dictates where the current sites are. You know, is there a 
historic role in nuclear weapon production for the most part? 
But we have not done any current studies that would reassess 
post-cold war environment.
    Mr. Shays. The concept of design basis threat, for my 
simple mind, I feel like a few people could get in a room, and 
in a week, they could do a fairly logical design basis threat. 
I mean, I want you to tell me why it would take months or years 
to figure out what is a logical design basis threat. Walk me 
through why it would take so long.
    Ms. Nazzaro. I don't know that I could say it should take 2 
years. And we have certainly said that 2 years was a long time 
to do this.
    But we have to also realize that we had a different 
environment after September 11th. The United States had a 
different sense of a terrorist threat capability within the 
continental United States versus any places overseas.
    Mr. Shays. Right.
    Ms. Nazzaro. So this was a whole new paradigm, if you will.
    Mr. Shays. That would speak to speeding up the process, not 
slowing it down. What's your point?
    Ms. Nazzaro. Well, as far as that you are looking at a new 
paradigm, it's not just updating, but I mean, we had a 
significant change in factors, as to a terrorist threat. We can 
talk a little bit more specifically as far as numbers this 
afternoon.
    Mr. Shays. We don't need to talk numbers right now. We need 
to just talk logically. I mean, we don't have to talk numbers 
to say that, in the past, we basically determined someone 
needed to get in and out, and now we have determined all they 
have to do is get in. And we are not telling anything that's 
top secret. The terrorists know that.
    I mean, if they are willing to get on an airplane and blow 
themselves up in this missile that they have devised, we can 
instantly determine that a design basis threat that says what 
will it take to get them in and out is going to be a lot more 
difficult for the terrorists. And now, if all they have to do 
is get in, it's going to be a lot easier for the terrorists. I 
mean, that's pretty simple stuff. You wouldn't disagree with 
that?
    Mr. Noel. Let me see if I can give you a couple examples of 
things that came up as we were doing our work.
    Mr. Shays. Sure.
    Mr. Noel. One was there seemed to be a fairly large debate 
among the intelligence community about September 11, and was 
this one group of 19 or 20 people, or four groups of 4 or 5 
people? And that does sort of drive which way you are looking 
at the world in terms of how big the threat should be 
postulated at. In the case of----
    Mr. Shays. Well----
    Mr. Noel. Now, I'm not going to defend either one.
    Mr. Shays. No. But just walk me through that. I think I 
know what you mean, but I think I could come to some real 
different conclusions. So tell me what 19 means versus four 
groups of 5.
    Mr. Noel. Well, we really can't talk about that until this 
afternoon, I don't think, to be fair, because it gets to what 
number you would set for your postulated threat.
    Mr. Shays. Let's not talk about what you would set. Just 
tell me what a large group versus what a number of collective 
small groups means. Walk me through that.
    Ms. Nazzaro. Well, I think the issue was there was no 
agreement as to what we should be trying to defend against.
    Mr. Shays. We won't even agree. I will just give you, if 
you have 20 people during an attack versus four groups of 5, 
tell me what the significant tradeoffs would be.
    Mr. Noel. Well, the significance was, were the four groups 
of five operating together, or were they independently just 
happening to arrive at the same place at the same time?
    Mr. Shays. Or I could logically say to you that you could 
have 20 people getting in a plant, or you could have four 
different groups working together in groups of 5.
    If we were in a Cabinet meeting with the President, you 
would have to take that phone that just went off and put it in 
a glass of water, if you don't know how to turn it off. That's 
basically what I figured I would do if I found myself in that 
circumstance.
    No. I just want to understand that. You know, we don't need 
to talk secret stuff. I mean, is there any doubt in anyone's 
mind that these attacks weren't coordinated?
    Mr. Noel. Well, that was a matter of debate that drove a 
significant amount of the time involved here. And I will defer 
to the Department to let them explain that a little bit better.
    Mr. Shays. It will be fascinating to understand that one.
    Mr. Noel. The other point I was going to make was when the 
Department did its own internal thing, what it would do is it 
would develop a design basis threat, send it out to all the 
sites and contractors. They would prepare written comments and 
concerns, and send them in. Those comments would get analyzed 
and put into a matrix, that would get circulated for review.
    And as we point out in our report that went through about 
four or five iterations of this. So every time you did that, 
you had a lot of paper flowing back and forth, a lot of 
commenting and analysis of the comments. And it's just that 
whole process tends to be very laborious.
    Our point being, that might be all right for some more 
general policy. But for this kind of a situation where the 
adversaries can move very quickly, maybe you need to relook at 
that and not go through that same process in the future.
    Ms. Brian. Mr. Chairman, if I could add.
    This is also relevant for your work in overseeing the 
commercial nuclear power plants, that the NRC, when they were 
looking at their design basis threat, were weighing in on this 
question of, ``Well, we only need to protect, you know, a 
smaller group because this wasn't a coordinated effort of a 
larger group.''
    But something that I think might be missing in this 
conversation is what was raised earlier. After the postulated 
threat was established, you then had the DOE separately making 
decisions about--and this is a big part of the time problem--
well, are we going to accept the postulated threat at all?
    And they sort of concluded, as GAO mentioned, for the first 
time, ``Well, we've decided we are going to have DBT, which is 
actually less than the postulated threat.''
    Mr. Shays. Well, I will just react first to this whole 
debate of 19, 20 versus four groups of 5. It was a coordinated 
effort. No one doubts it. So, if anything, it speaks to the 
fact that they can take 19 people and use them in a coordinated 
way, and they can focus on one or two targets. So, I mean, it 
seems to me that that is a debate that should have lasted about 
2 minutes. But we will get into the numbers later.
    Well, I think I'm just going to state for the record that I 
have gotten nothing but cooperation from NNSA and Admiral 
Brooks, and I have appreciated the amount of work they have 
done to help us understand this issue. And so I want to put 
that on the record.
    It just strikes me, as I went to three of these sites, that 
the task is quite difficult--they are very, very old sites--and 
that I would think that terrorists would design their attack 
based on what they think it would take to succeed. And so the 
irony is, then we would respond by saying what would it take to 
succeed, and then what do we have to do to prevent that from 
happening, not based on even historically what has been done, 
because I think that they demonstrated on September 11th that 
they can take small cells, have them work in a coordinated way 
against, at a precise period of time. And it just seems to me 
that they have--that the design basis for that would have to 
take that into consideration.
    When we saw these sites and we looked at the design basis 
threat back last year, it was very clear to me that if they 
could meet the design basis threat, the design basis threat 
that they had devised was simply not adequate. It just simply 
wasn't adequate. And I could think in more than one way how 
they could overcome simply by two people inside instead of one 
or zero. I was astounded at seeing the encroachment of the 
public to these facilities. I was amazed at how many buildings 
I saw onsite and how easy it would be for someone onsite to 
have some protection and get very close to their target. And I 
mean, I could go on and on and on. And I'm not saying anything 
that anyone just looking at a picture wouldn't conclude.
    You have answered to me why it would take so long, but what 
you basically have done is you have, Ms. Nazzaro, you have 
basically done in your report is you have basically said the 
design basis threat isn't adequate and you are basically saying 
it's vulnerable and you are basically saying that it's going to 
take too long to resolve.
    Ms. Nazzaro. Correct.
    Mr. Shays. Are you saying anything more than that?
    Ms. Nazzaro. I think you have captured the three main 
points.
    Mr. Shays. And because it's so straightforward, I don't 
believe I have much more to add. Is there anything else?
    I think what we will do--excuse me. Ms. Brian, what I would 
do is invite any of the three of you to make any closing 
comment, and then we will get on to our next panel.
    Ms. Nazzaro. I think I would just like to reiterate our 
recommendations to try to move----
    Mr. Shays. Why don't you run through them?
    Ms. Nazzaro. I will summarize, but what we are trying to do 
is to expedite full compliance of the DBT. And first is to 
address the outstanding issues, particularly as they relate to 
the improvised nuclear devices; second, to develop that 
Department-wide implementation plan; and third, to inform 
Congress of that implementation status and any facility 
vulnerabilities that may affect either the surrounding 
communities or the Nation at large.
    Ms. Brian. I would just like to affirm what the GAO has 
said. I think those are the most important steps. And I think 
that perhaps today, by the committee getting to the bottom of 
the first step toward that, which is the TA-18 move and 
establishing whether this place is actually getting 
deinventoried or not will start the ball rolling finally.
    Mr. Shays. Very good. Thank you for your very important 
work.
    And we will now get on to the next panel. That would be 
Linton Brooks, Administrator, National Nuclear Security 
Administration, Department of Energy; Glenn Podonsky, Director, 
Office of Security and Safety Performance Assurance, Department 
of Energy.
    And I will invite you to come forward and remain standing, 
and I will swear you in.
    [Witnesses sworn.]
    Mr. Shays. I should have asked, is there anyone else who 
may join you in testifying? If there is, I probably should ask 
them to stand.
    Mr. Podonsky. Mr. Chairman, I would like to ask the 
Director of Security and the Director of Independent Oversight 
to stand.
    Mr. Shays. If they will just stand, I will just swear them 
in. You two gentlemen can sit down. Is there anyone else, 
Ambassador, you would ask to be joining you?
    Mr. Brooks. I think I am flying solo.
    Mr. Shays. You may not be asked to speak. And if you are, 
we will make sure your name is on the record.
    [Witnesses sworn.]
    Mr. Shays. Let me just read a statement, but first, let me 
again thank you Ambassador Brooks and you Mr. Podonsky, you 
have both been extraordinarily helpful to this committee. You 
have not been reluctant to tell us whatever we need to know. We 
couldn't have asked for greater cooperation.
    We may have some disagreements. We don't face some of the 
challenges you face, but you are--we appreciate the good work 
you do, and we will look forward to getting into details in our 
closed hearing but also to talk about some important general 
concepts.
    I would like to just make this statement--in response to 
our invitation letter of March 23rd, DOE informed us just 
yesterday that no witness was available to testify specifically 
on DBT implementation and decommissioned environmental 
management sites.
    Those facilities possess unique vulnerabilities and possess 
difficult questions about the extent, pace, and cost of 
security enhancements. Unable to address those issues today, we 
will convene a separate hearing on DBT implementation at DOE 
environmental management sites. We have the Department's 
commitment to make a high level witness available at that time. 
We would have liked to have done it today, but it just means it 
will get a special focus, which is I guess, what they wanted.
    So, Mr. Brooks, welcome. What we do is we do a 5-minute 
statement, but we roll over 5 minutes, so you have up to 10. We 
hope you will stop somewhere between 5 and 10.
    And may I also say that I understand you have some personal 
challenges at home, and we do appreciate that you take this job 
so seriously that you would meet your commitment here as well. 
And we thank you for that.

STATEMENTS OF LINTON F. BROOKS, ADMINISTRATOR, NATIONAL NUCLEAR 
  SECURITY ADMINISTRATION, DEPARTMENT OF ENERGY; AND GLENN S. 
 PODONSKY, DIRECTOR, OFFICE OF SECURITY AND SAFETY PERFORMANCE 
                ASSURANCE, DEPARTMENT OF ENERGY

    Mr. Brooks. Thank you, Mr. Chairman.
    Thank you, Mr. Chairman. Before I get into my prepared 
remarks, I would like to make a couple of points about the 
panel you have just heard. And we can go into these at whatever 
length you want.
    From my perspective, while I'm sure there was somebody who 
was worried about the cost of the design basis threat, I don't 
believe it's correct that cost was a driver in the decisions 
the Secretary made. I don't believe it's correct that the 
challenges at Lawrence Livermore will preclude adequate 
security or meeting of the design basis threat. I don't believe 
it's correct that the Inspector General found systematic 
cheating at Y-12. The Inspector General specifically said he 
could not document the allegations he had heard.
    Nonetheless, both Mr. Podonsky and I think that any 
compromised performance testing is unacceptable, and whatever 
was true in the past, there won't be any in the future.
    I don't believe it is correct that the HEU materials 
facility at Y-12 is an inferior design to the so-called berm 
design. In fact, it is a superior design. And I don't believe 
it's correct that only 50 percent of the material from TA-18 
will be moved to Nevada. It's our intention to move all of that 
material. And I appreciate the committee's indulgence, and I 
will be happy to expand on those. And with your permission now, 
I appreciate the opportunity to appear before you. I have 
submitted a prepared statement which I would like to summarize.
    Tightening the security that began with the establishment 
of NNSA in the year 2000 and accelerated after September 11th 
has resulted, in my view, in a strong, effective security 
posture at all nuclear weapons research and production 
facilities. Today, no nuclear weapons, no special nuclear 
material, and no classified materials are at risk within the 
nuclear weapons complex.
    That does not mean that we don't have a great deal of work 
to do yet. Secretary Abraham has made it clear that we can't 
fulfill our mission unless we can guarantee security. That 
priority is reflected in our 2005 budget request as well as in 
the reprogramming request to be submitted this week. Our 
safeguards and security budget has grown from $400 million in 
fiscal year 2001 to $707 million in the current budget request. 
That's a 75 percent increase. The number of protective force 
officers guarding our facilities has increased from 2,100 to 
over 2,400 during the same timeframe.
    Overall, security performance as measured by independent 
review has continued to improve. In the past year, no force-on-
force performance testing by the Office of Security and Safety 
Performance Assurance has found security forces unable to 
protect special nuclear material on their site.
    Now, while I am pleased with the progress we have made, our 
long-term security has to be based on more than guns, gates, 
and guards. Therefore, Mr. Podonsky and I will jointly 
commission an examination of how we can harness the power of 
technology to improve security.
    We're already doing a great deal of that, which I will be 
happy to talk about in the question period. But we will 
explicitly look at what else might be done, and we will do so 
in time to affect the 2007 budget.
    We will also look at accelerating the fielding of the 
technology we already have in hand. We believe that we must 
reduce our reliance on an old and aging physical security 
system and replace it with state-of-the-art technology.
    But while we prepare for the future, we have to deal with 
today's threats. All NNSA sites have completed and I have 
approved plans to meet the design basis threat by the end of 
fiscal year 2006. We'll use formal vulnerability analysis to 
validate the security upgrades that I've improved. These 
efforts are under way.
    Because we have not fully formulated our plans at the time 
of submitting the fiscal year 2004 budget, we're also 
submitting a $55 million reprogramming request this week to 
keep our design basis threat implementation on track. That will 
bring our budget for this year to $638 million. We've asked for 
another $90 million specifically for design basis threat in the 
2005 budget request.
    Mr. Shays. Let me just interrupt you. Are you saying you're 
asking for a supplemental----
    Mr. Brooks. I'm asking for reprogramming in this fiscal 
year.
    Mr. Shays. Within your budget or within DOE?
    Mr. Brooks. Within mine.
    Our most significant site, which is the Pantex site, and 
the Office of Secure Transportation, which moves both material 
and weapons, are already prepared to meet the design basis 
threat; and I'm confident that all sites will be in compliance 
by the end of fiscal 2006.
    Let me now briefly turn to the GAO report issued today.
    GAO spoke of the effectiveness of elevated security 
conditions. As the report states, we raised from SECON level 4, 
which we used to think of as normal, to SECON level 2 within 
hours of the attacks on September 11. The idea of these 
measures, which are tailored to each site, is to put up the 
best available defense against a broad spectrum of threats. 
We've validated these measures somewhat through tabletop 
analysis and through oversight, and we have modified the 
procedures over the last 2\1/2\ years to improve the 
effectiveness of SECON levels. Today, as a routine basis, we 
maintain SECON 3.
    Seven times we've elevated our security condition, in each 
case in response to the Department of Homeland Security 
elevating the overall threat level. As GAO quite correctly 
states, a heightened state of readiness impacts training, 
effectiveness, and the protective force. It also costs money. 
We estimate it costs about $560,000 a day for every day that we 
are in a heightened alert status. So we need to improve our 
ability to guard our facilities without throwing people at 
them, and we need to reduce the amount of overtime security 
force personnel are required to work.
    We're aggressively hiring more security forces. Last year, 
the Congress approved a recommendation by the Secretary to give 
us additional flexibility in conducting background 
investigations to speed up the clearance of our new hires. We 
are, as I said earlier, trying to accelerate the use of 
technology--and we can talk about some of this in the question 
period--as a way to increase the effectiveness of security 
forces.
    Secondary in the GAO report is improvised nuclear devices, 
and there's very little I'd like to say in the open session on 
this. However, we disagree with the GAO conclusion that an 
improvised nuclear device should be thought of as the 
equivalent of a nuclear weapon. Our reasoning was based on 
analysis of physics and weapons design, and we believe that 
nuclear weapons deserve the highest priority protection. That's 
because to detonate and improvise a nuclear device an adversary 
has to make that device into a condition where a nuclear weapon 
already is, and we believe that is a greater challenge and 
therefore we believe that the highest security should be 
reserved for nuclear weapons.
    I'd like any further discussion of this, for fairly obvious 
reasons, to be in closed session.
    I know that the security of Y-12 is of particular concern 
to this committee. It's certainly got some of the most 
difficult security problems anywhere in the complex. It's old. 
Facilities were built-in the early days of the cold war with no 
thought of the kind of threat we have now.
    I am, however, still convinced that Y-12 will meet the 
deadline for implementation. Much of the funding for security 
upgrades that I referred to earlier has been used for 
improvements at Y-12, and much of the--about half of the $55 
million reprogramming--will be in Y-12 and about $25 million of 
the design basis threat money in the 2005 budget will be for Y-
12.
    Now that level has led a number of people, including I 
believe you, Mr. Chairman, to question the long-term viability 
of Y-12 as a site for this mission. Secretary Abraham has 
committed to another committee of the House of Representatives 
to conduct a zero-based review of the entire weapons complex, 
based on a revised stockpile plan which is in the final stages 
of approval and a look at the design basis threat. He is 
committed, and we are committed to looking at all options.
    It's clear, however, that if one of those options led you 
to conclude that you had to move Y-12 it would be a lengthy and 
expensive endeavor. It would take at least a decade, cost 
probably billions of dollars, and during that time Y-12 
security would have to meet the same standard we are trying to 
achieve by the end of fiscal year 2006. So whatever the long-
term merits, I do not believe moving Y-12 or any other site is 
a solution to our near-term problems.
    I do, however, agree with the testimony you've heard that 
consolidating and securing special nuclear material is an 
important part of our security strategy. We are well under way 
in our plan to begin moving material from TA-18 to Nevada this 
calendar year. We are also looking at other material 
consolidation candidates.
    I believe consolidation, as referred to in the last panel, 
is important within sites. For that reason, the highly enriched 
uranium material facility in Y-12 is particularly important 
because it will allow us to consolidate within the site and 
reduce the defended footprint.
    At the same time, sir, consolidation is not a panacea. We 
have to have materials at some locations to carry out our 
mission.
    For example, the subcommittee has heard suggestions to 
eliminate special nuclear material at Lawrence Livermore. In 
our judgment that would preclude our carrying out our stockpile 
stewardship assessments; and that's because, while we can move 
the material someplace else, we can't move the research 
capabilities and processes that exist at Livermore.
    In conclusion, sir, we are fully committed--the Secretary 
is committed and I am committed to maintaining security at our 
facilities. Implementing the new design basis threat is a major 
part of that effort, and I am confident that we will continue 
to ensure the security of the complex.
    I thank you for your attention, sir; and I'm looking 
forward to your questions after you've heard from Mr. Podonsky.
    Mr. Shays. Thank you, Ambassador.
    [The prepared statement of Mr. Brooks follows:]

    [GRAPHIC] [TIFF OMITTED] T6313.027
    
    [GRAPHIC] [TIFF OMITTED] T6313.028
    
    [GRAPHIC] [TIFF OMITTED] T6313.029
    
    [GRAPHIC] [TIFF OMITTED] T6313.030
    
    [GRAPHIC] [TIFF OMITTED] T6313.031
    
    [GRAPHIC] [TIFF OMITTED] T6313.032
    
    [GRAPHIC] [TIFF OMITTED] T6313.033
    
    [GRAPHIC] [TIFF OMITTED] T6313.034
    
    [GRAPHIC] [TIFF OMITTED] T6313.035
    
    [GRAPHIC] [TIFF OMITTED] T6313.036
    
    [GRAPHIC] [TIFF OMITTED] T6313.037
    
    [GRAPHIC] [TIFF OMITTED] T6313.038
    
    [GRAPHIC] [TIFF OMITTED] T6313.059
    
    Mr. Shays. What I'm going to do is I'm going to have Mr. 
Podonsky speak, but just to tell you what my question will be, 
I will want you to run down each of the points that you agree 
and disagree with GAO on.
    Mr. Brooks. Sure. Now, sir?
    Mr. Shays. No, just after he's done. I'm just giving you a 
warning of what I want to ask.
    Mr. Podonsky.
    Mr. Podonsky. Thank you, Mr. Chairman; and thank you for 
inviting me to testify today.
    You requested that we address the issues as they relate to 
the GAO report dealing with DOE's implementation of its revised 
design basis threat. I have addressed those issues in detail in 
my written statement which I request be submitted for the 
record.
    I would first like to commend the GAO for their thorough 
and professional job in preparing their report. We agree that 
the issues they raised are legitimate and valid and must be 
addressed. As acknowledged in the report, we had previously 
identified and we're dealing with some of those issues. We 
conclude, as I believe that GAO has also concluded, that while 
the issues raised in the report are important many of them 
describe past events and of more importance are DOE's current 
actions to improve protection programs and to implement the 
revised DBT. Therefore, I will only briefly mention the issues 
raised in the GAO report and will devote the bulk of my 
allotted time in discussing what we are doing to advance 
security and fully implement our revised DBT.
    The issues raised in the GAO report essentially deal with 
the time it took to develop and issue the revised DBT and the 
differences to the threats described in the postulated threat 
and the DBT. Additionally, two issues deal with the effects of 
the manpower and intensive measures implemented on and after 
September 11, 2001, and the fact that effectiveness of these 
measures were not evaluated using our formal vulnerability 
assessment methodology. The final issues involve DOE's need to 
provide additional implementation guidance, implementation 
plans, and supporting budgets associated with revised DBT.
    We accept these issues as valid. The Department's senior 
leadership is committed to fully meeting the agency's security 
responsibilities, including the timely implementation of the 
revised DBT. That commitment is reflected in Secretary 
Abraham's recent creation of my organization, the Office of 
Security and Safety Performance Assurance.
    While the Secretary holds line managers accountable for 
effectively implementing security programs, he recognizes that 
the Department's effort to improve protection programs could be 
accelerated and more effective if relationships and 
interactions between headquarter's elements and the fields were 
improved.
    His direction to me when he created the office, resulted in 
four major priorities: improve communications and cooperation 
between my two organizations and the field, improve the quality 
and security policy and policy guidance, evaluate and develop 
security-related technologies and make them quickly available 
to the field, and overall security training to ensure that 
national level training resources are responsive to the needs 
of field organizations. I believe improvements in these four 
areas are key not only to our current efforts to upgrade 
security and fully implement the revised DBT but also to the 
future vitality of our protection programs.
    We are improving the communication between my two offices 
and other headquarter's offices and security professionals in 
the field. We're working hard to ensure that organizational 
relationships are mutually beneficial and supportive of 
protection program needs. We have removed some institutional 
barriers that have hampered communications and have been 
successful in opening additional lines of dialog between my 
office and other organizations and agencies.
    Our security policies and implementation guidance are the 
foundation of our protection programs. We believe that security 
policies should be practical, based on real needs and 
unambiguous.
    Some of our policies have fallen short of this mark. A 
major contributing factor to past difficulties in resolving 
policy issues was a prohibition against policy developers 
communicating directly with field sites. The Deputy Secretary 
recently directed a change to this ill-conceived practice, and 
we have established necessary dialogs to facilitate policy 
development and revision. Our policy staff is currently at work 
reformulating and improving many of our security policies.
    The Secretary sees our ability to implement new security 
technologies as a crucial element in our effort to fully 
implement the revised DBT. We are convinced that improved 
technologies will be a long-term key in our efforts to improve 
the effectiveness and efficiency of our protection programs. 
Whenever possible we have to move away from the very costly and 
often inefficient manpower-intensive responses to security 
concerns. The tendency to add more guards must change. The 
introduction of new technologies, such as active and passive 
barrier systems, can act as force multipliers that reduce our 
dependence on manpower.
    The Department has the scientific and technology resources 
to address our technology needs. We are beginning to focus and 
improve our internal efforts in this area in cooperation with 
the NNSA and provide the field with technological options that 
can be used to reduce manpower and improve protection systems' 
effectiveness.
    Security training is our final focus area. Through our 
National Training Center, we establish security training 
standards and provide safeguard security related professionals 
training for the Department. We intend to increase the 
efficiency and effectiveness of those efforts by ensuring that 
the training resources are more responsive to the specific 
needs of DOE and NNSA field organization.
    We are focusing considerable effort in these four areas; 
and we firmly believe that Secretary's instincts will prove to 
be correct, that these initiatives will have a profound effect 
on our efforts to strengthen our protection programs. The 
Department's leadership has declared and demonstrated its 
willingness and determination to take the actions necessary to 
improve our security performance and to fully implement the 
revised DBT on schedule. We fully intend to pursue our efforts 
until we have achieved a Department-wide level of performance 
that meets our expectations, the expectations of Congress and 
of the American people.
    I'd like to close by saying in my 20 years of working as 
the Department's overseer and now as the Department's overseer 
and policy promulgator, I have never seen an administration 
that was so committed to improving security as this 
administration under Secretary Abraham, Deputy Secretary Kyle 
McSlarrow and Administrator Ambassador Brooks.
    Mr. Shays. Thank you.
    [The prepared statement of Mr. Podonsky follows:]

    [GRAPHIC] [TIFF OMITTED] T6313.039
    
    [GRAPHIC] [TIFF OMITTED] T6313.040
    
    [GRAPHIC] [TIFF OMITTED] T6313.041
    
    [GRAPHIC] [TIFF OMITTED] T6313.042
    
    [GRAPHIC] [TIFF OMITTED] T6313.043
    
    [GRAPHIC] [TIFF OMITTED] T6313.044
    
    [GRAPHIC] [TIFF OMITTED] T6313.045
    
    [GRAPHIC] [TIFF OMITTED] T6313.046
    
    [GRAPHIC] [TIFF OMITTED] T6313.047
    
    [GRAPHIC] [TIFF OMITTED] T6313.048
    
    [GRAPHIC] [TIFF OMITTED] T6313.049
    
    [GRAPHIC] [TIFF OMITTED] T6313.050
    
    [GRAPHIC] [TIFF OMITTED] T6313.051
    
    [GRAPHIC] [TIFF OMITTED] T6313.052
    
    [GRAPHIC] [TIFF OMITTED] T6313.053
    
    [GRAPHIC] [TIFF OMITTED] T6313.054
    
    [GRAPHIC] [TIFF OMITTED] T6313.055
    
    [GRAPHIC] [TIFF OMITTED] T6313.056
    
    Mr. Shays. Would you do me the favor, Mr. Podonsky, of 
describing what you are versus what Mr. Brooks is.
    Mr. Podonsky. I pause--you mean my function? For the 
Department of Energy, I report to the Secretary of Energy.
    I have two offices. One office is the Independent Oversight 
and Performance Assurance Office headed up by Director Michael 
Kilpatrick, who is responsible for independently assessing the 
performance of the Department of Energy in environment, safety, 
health, safeguard security, cybersecurity, and emergency 
management.
    Independence means that it's----
    Mr. Shays. And environment as well?
    Mr. Podonsky. Environment as well. It's independent of the 
program offices. Their independence comes from how the work is 
conducted. They are not implementers of any of the policies 
that are promulgated by the Department.
    My other office, the Office of Security, headed up by the 
Director of Security, Marshall Combs, is responsible for 
promulgating policy as well as providing technical assistance 
to help the field in its implementation of DBT and other 
policies.
    Ambassador Brooks is an implementer. He is many things, but 
in that regard he's an implementer. We are the policy 
promulgators and the overseers.
    Mr. Shays. Wait. He is not policy?
    Mr. Podonsky. According to the NNSA act, he generates 
policy for his agency, but the Department policy, being from a 
Cabinet official and according to the act as I understand it, 
the Secretary has overall policy of the Department, which would 
include NNSA.
    Mr. Shays. Ambassador, in your words, how do you define 
yourself versus Mr. Podonsky?
    Mr. Brooks. He helps the Secretary set policy. I implement. 
He comes and checks to make sure I've done it right.
    Mr. Shays. Would the design basis threat--you both--tell me 
your roles in establishing the design basis threat.
    Mr. Podonsky. I've been in this job for 4 months. So my job 
previously I was a critic of the design basis threat as the 
overseer.
    Mr. Shays. That's one reason why I was getting confused 
here.
    Mr. Podonsky. I'm schizophrenic, too, sir.
    Mr. Shays. I didn't say that.
    Mr. Podonsky. The Office of Security promulgated the design 
basis threat for the Department in coordination with other 
agencies and then coordinated, as you've heard in testimony by 
GAO, with the other elements of the Department.
    Mr. Shays. Who initiates the design? Do you initiate the 
design basis threat?
    Mr. Podonsky. My Office of Security initiates the design 
basis threat.
    Mr. Shays. So it's not Ambassador Brooks that does that?
    Mr. Podonsky. No.
    Mr. Shays. What roll does he have, in your words, with 
design basis threat?
    Mr. Podonsky. I believe Ambassador Brooks as well as the 
Under Secretary for ESE has the responsibility to implement the 
Secretary's policy, and the design basis threat is the 
Secretary's policy on what the posture of protection should be 
in the Department.
    Mr. Shays. The design basis threat basically determines 
what the threat is. Do you also determine what the antidote to 
that threat is or is that Ambassador Brooks that does that?
    Mr. Podonsky. I need to clarify. The design basis threat is 
quite a misnomer, the word ``threat.'' Design basis threat is 
really a DOE performance standard. The threat is developed by 
the postulated threat document that is created by the Defense 
Intelligence Agency. So what the Department is--they take the 
postulated threat, and they evaluate what's contained in the 
postulated threat, and they specifically are applying it to the 
DOE sites and the protection of those sites.
    Mr. Shays. That's a little different than I basically had 
always viewed it, and so I'm just exposing my ignorance, which 
happens quite often. But I do want to understand it.
    My view was the design basis threat was we would say that 
it was likely that at, say, Y-12 you might have up to so many 
people, you might have so many people in-house, out of it, and 
we would give the worst-case scenario, and then you would have 
to design a way to prevent that threat from succeeding. Now 
you're telling me that the postulate--that you don't determine 
that at all. That's someone else outside your organization that 
does that?
    Mr. Podonsky. No, sir. Let me clarify, and I think in the 
last panel there was also a question as well as the GAO 
question why the numbers in the postulated threat differ from 
the DOE design basis threat. And it might be helpful if I 
described the postulated threat as the document that 
characterizes what the threat is expected to look like, and 
it's intended to portray a range of adversary capabilities.
    Mr. Shays. And you would agree that's a key assumption?
    Mr. Podonsky. Yes, sir.
    Mr. Shays. Because you could design a threat to just be 
almost meaningless and easy to come back or you could have a 
threat that would be almost beyond absurd that you could never 
defend against.
    Mr. Podonsky. And I think that's probably part and parcel 
why it took such a long time for the Department of Energy to 
publish its design basis threat, and there's some other factors 
that I could go into later.
    Mr. Shays. I don't think it should take so long sir. I 
mean, that's one thing I could never accept, not in this day 
and age with the threat existing. But, anyway----
    Mr. Podonsky. But getting back to your original question, 
sir, if I might, the design basis threat for the Department 
gives the specific adversary group's size, equipment and 
capability; and then the DOE analyst established that design 
basis threat at a level that considers all the terrorist events 
worldwide. And then they apply it to the different sites with 
specific----
    Mr. Shays. Wouldn't it be logical, though, without talking 
numbers, that terrorists are going to--they did what they 
needed to do to accomplish their mission? For instance, you 
only need two people on the boat evidently with a bomb to go up 
to the Cole. You don't need 1,000. That doesn't mean they won't 
use 1,000 but they didn't need to use 1,000 to do that. Or you 
only needed five people per plane--in one case only four--but 
five people per plane and you could take a plane. So they 
determined what they needed to overcome any--to accomplish 
their mission.
    Wouldn't it be logical that terrorists would look at a 
facility and say, well, my gosh, we may need 50 people in order 
to succeed here; and am I to interpret because they never used 
50 somewhere else that we make an assumption that they won't?
    Mr. Podonsky. No, sir. I think what has to happen is you 
have a point in time that you can put so much security in place 
that you end up not being able to do your mission. And 
somewhere the decision has to be made, is what is the 
Department--what agencies--what risks are you willing to 
accept, and there has to be a tradeoff.
    I'm not here to defend the current DBT as much as I would 
also like to say that the DBT, the current DBT, was published 
in May 2003, is now almost reaching a year. And I would tell 
you that when the authors of the original DBT put it forward to 
the Secretary, the Secretary of Energy actually increased 
numbers, without getting into specifics, which was quite a 
surprise to the safeguard security community that he actually 
increased it.
    I've also been told as of this morning that I would like to 
share with you that, as a result of your work and the GAO's 
report, I am directed in my new capacity to take 30 to 60 days 
to reexamine where we are with the DBT and to see whether or 
not the numbers need to change now that we've had a year of 
experience and what does it mean.
    Mr. Shays. Again, I'm getting a little confused, because 
the issue of the size and equipment and capabilities is not 
determined by you; correct?
    Mr. Podonsky. It's determined by the intelligence 
community.
    Mr. Shays. Right. So the intelligence community--I think 
somehow having the intelligence community determine this makes 
me less comfortable, and I don't mean to be cute. You are then 
supposed to find the antidote to that; correct?
    Mr. Podonsky. My staff, yes, sir.
    Mr. Shays. That's your staff, not Ambassador Brooks.
    Mr. Podonsky. Yes, sir.
    Mr. Shays. So now what is ironic is you're being asked to 
look at the design basis threat and not the intelligence, and 
that's why I'm getting confused. If it's their job, why are you 
being asked----
    Mr. Podonsky. I think because of the commitment of this 
administration to security and the reality of the word today, 
they recognize that we need to reexamine where we are. As I 
said in my opening statement, we agree with the points made in 
the GAO report.
    Mr. Shays. I would think when setting design basis threat, 
you would look at your capabilities and then you would say, my 
gosh, how could someone beat our capabilities? That's the way I 
would think that a terrorist would do. They would want to get 
information about how you secure a facility and then they want 
to say, OK, what do we do to beat your preventative measures? 
Then, what I would think they would do is they would say, well, 
we would have to do these things. Then they would have to 
determine whether it is feasible or not, and you would have to 
determine the same thing. You would have to be trying to 
anticipate what the terrorists would be doing.
    For instance, in a site where there is not much of a 
buffer, and where you can get to the perimeter very easily, I 
would think the terrorists would say, well, it would take--I'm 
just going to just take something that that has no intelligence 
behind it--it's going to take 50 people. They're then going to 
go and say, well, can we then logically amass 50 people? And 
you're going to do the same thing, and you're going to know at 
what point they have no capability. I would think that's 
ultimately how you would determine the threat.
    But what I'm hearing you say is that we're seeing what they 
have done in the past; and if they didn't, for instance, amass 
50 people, then we may make an assumption they are not going to 
use 50 people, which strikes me as a hope and a prayer.
    Mr. Podonsky. No, sir. That's not what I'm implying. If 
that's what you're interpreting from my statement, then--then 
let me try to clarify that.
    Historically, as we all know, on September 11 we were all 
surprised and shocked at what transpired. When we talk about 
the design basis threat, it's more than just adding numbers. 
It's exactly what you're saying. There's a lot of analysis that 
goes into targeted attractiveness, the potential paths that 
would take place; and if I might, if you'll allow me, I will 
give you one vignette.
    In 1996, wearing my oversight hat, we went out to test the 
performance at one of our sites; and we brought with us the 
Navy SEALs. And the Commander of the Navy SEALs--we were 
testing against the previous design basis threat; and the 
Commander of the Navy SEALs said, Mr. Podonsky, if I was going 
to take this facility, I would bring in whatever number I 
needed to take the facility, which supports your statement. But 
we still have to balance what is the likelihood of an event and 
what's the amount of people that they are likely to amass and 
what do we want to protect against and there is a degree that 
has to come; and while I do not know anything to prove that 
there was money driving the numbers for design basis threat, it 
would be inconceivable to me that money could not be a 
consideration at some point.
    Mr. Shays. Money has to be, ultimately. Otherwise, we could 
do an absurdity and say we'll have 10,000 people guard each 
site. Well, obviously, they would get in each other's way and 
probably be a danger, but money is a factor, and if we don't 
admit that, we're not being honest.
    Ambassador Brooks, help me out in this conversation. When I 
traveled with you and we talked about design basis threat, I 
felt that you had a say in the design basis threat. And, by the 
way, help me out in this postulated threat or design basis 
threat. Walk me through that.
    Mr. Brooks. Certainly, sir.
    First, let me talk about the internal organization of the 
Department. You have to distinguish between formal 
responsibility and where the Secretary turns for advice.
    The formal responsibility for preparing the design basis 
threat document was with the Office of Security at the time, 
prior to Mr. Podonsky's arrival, a separate stand-alone office 
reporting to the Secretary. The Secretary, however, as is his 
practice, turns to his senior subordinates for advice. So when 
the Office of Security prepared the draft of the design basis 
threat, the Secretary asked for the views of the then Under 
Secretary Card, he asked for my views and, he asked for the 
views of the Deputy Secretary. So I did have an opportunity, as 
I do on most policy things, to make my views known, even though 
I might not be formally responsible for developing that 
particular policy; and that's fairly common within government.
    Further, since I am responsible for making sure that we are 
implementing the Secretary's policy, I need to understand it 
well and so, when we traveled, I attempted to articulate it to 
you.
    Now let's talk about postulated threat and design basis 
threat.
    A group from the intelligence community--and Mr. Podonsky 
and I have met with the analysts who actually did this and 
walked through exactly what they did to make sure that we 
understood at a classified level where there was data and 
adversaries where there was judgment. We were advised of their 
views on what might do and might not do. And we were told that 
in some places there's just no data, you're not on your own, 
and there's a little of all of that in the postulated threat.
    A group of analysts from the intelligence community with 
community support looked at what is the plausible threat 
worldwide over the next 10 years--and those two words are very 
important: the design basis threat--then looked and said, what 
is the problem we have to deal within the United States? For 
example, they said one wouldn't expect to see no cooperation 
from the government for terrorists, as might be true overseas; 
no meaningful support for terrorists within the population, as 
might be true overseas; no nearby logistics facilities, as 
might be true overseas.
    So, after analyzing it, the Office of Security came to some 
conclusions about what would be an appropriate threat that the 
Secretary should promulgate to govern security at our sites. 
The Secretary, who is not a captive of his staff, took that, 
talked to a bunch of people, listened to a bunch of people and 
made, as Mr. Podonsky said, some judgments; and then that 
became his policy, and our task is to implement it.
    So the postulated threat was the basis from which the 
design basis threat evolved, but the design basis threat is the 
Secretary's formal guidance to us about how to allocate 
resources.
    Mr. Shays. As you both are responding to these questions, I 
think I'm having a sense of why I feel uneasy; and so maybe you 
can respond. It strikes me that the postulated threat is based 
on what we have seen terrorists do. If we followed that logic, 
it would explain why we would never have been prepared for 
September 11. Because we basically said, terrorists as a 
general rule, don't know how to fly planes, and as a general 
rule we haven't seen five of them take a plane and use it as a 
missile. But, in fact, they did that. So if the postulated 
threat is based on historic practice--I would be very uneasy.
    Mr. Brooks. Yes, sir. I want to choose my words very 
carefully, remembering this is an open session; and we may want 
to go into this more later. The word postulated is important, 
and it is not limited to what has been seen in the past.
    Mr. Shays. Fair enough.
    Mr. Brooks. It uses what has been seen in the past to 
inform, to make some postulations about what might happen in 
the future and provide some nonquantitative estimates of 
probability. But I think if the analysts who were working it 
were here they would want to distinguish between documents 
traditionally done by the Intel general community, which are 
based on, as much as possible, evidence and a document which 
says, based on the evidence, what is plausible and is therefore 
a postulated threat. The word in this particular case actually 
means something.
    Mr. Shays. I'm going to get to your going through the 
response to GAO. But let me ask you, again, is it your job to 
defend these sites or is it Mr. Podonsky's job?
    Mr. Brooks. My job.
    Mr. Shays. So, basically, the design basis threat 
ultimately goes through his office. It's your job ultimately to 
defend against the threat. And then, Mr. Podonsky, is it your 
job to see if they can do that?
    Mr. Podonsky. Yes, sir, to independently test Ambassador 
Brooks' facilities as well as the rest of the Department's 
facilities.
    Mr. Shays. So now I'm getting a sense that the two of you 
disagree a little bit on the GAO's findings, is that fair?
    Mr. Brooks. I don't think that is true.
    Mr. Shays. OK. I heard basically agreement with GAO from 
you, Mr. Podonsky, and I heard Ambassador Brooks' disagreement 
with GAO.
    Mr. Brooks. That may have been inelegant phrasing on my 
part, because I didn't hear Mr. Podonsky say anything I 
disagreed with.
    Mr. Shays. OK. So tell me what you agree with within the 
report--and I'm looking at page 27 where it's first, second, 
and third. Would you go through each of those and tell me what 
you agree with; and, finally--there's four points--and the 
conclusions.
    Mr. Brooks. I have seven recommendations listed. I may not 
actually have the exact same version of the document you have.
    Mr. Shays. Let's just go through it. So, ``First, DOE needs 
to know the effectiveness of its most immediate response to 
September 11, 2001, the move to higher SECON levels. The higher 
SECON levels, while increasing the level of visible deterrence, 
have come at a significant cost in budget dollars and 
protective force readiness. We believe that DOE needs to follow 
its own policies and use its well-established vulnerability 
assessment methodology to evaluate the effectiveness of these 
additional security measures.'' Do you disagree with that?
    Mr. Brooks. I think that's a good recommendation, and we 
ought to do it.
    But I also agree with the comment that you heard from the 
previous panel that in the near term, as a practical matter, 
the only way you can increase security protection in the short 
term in response to threats is more people, and that's 
essentially what we get with SECONs, but I think that we are 
spending a lot of time and energy on it and formally 
understanding how effective that is is a perfectly reasonable 
thing. I think--would you like me to just go down the----
    Mr. Shays. Just go down. So the second----
    Mr. Brooks. I have no objection to looking at how the DBT 
was developed.
    Mr. Shays. This is a second----
    Mr. Brooks. The second bullet that says, ``Review how the 
DBT is developed to see if this policymaking approach is 
appropriate.'' I think that, whatever may or may not have been 
appropriate for a radical change that was represented by 
September 11, we're probably going to be looking at incremental 
changes. So I think that's a perfectly reasonable thing to do. 
I'm not sure it will make a huge deal of difference.
    The most important recommendation and the one in which--and 
I'm speaking personally, because the Department hasn't taken a 
formal position on these. I believe that the graded threat 
approach is appropriately applied, for reasons I said in my 
statement, to improvised nuclear devices.
    Mr. Shays. It says, ``Reexamine the current application of 
the graded threat approach to sites that may have improvised 
nuclear device concerns.'' And you agree or disagree with that?
    Mr. Brooks. I have no objection to reexamining anything. I 
believe that when we reexamine it we will find that we were 
correct.
    Mr. Shays. You're not going on like Allen Greenspan on me 
and talking in tongues, are you?
    Mr. Brooks. No, sir. I think we're right.
    Mr. Shays. So the bottom line is you accept that they need 
to reexamine, but you don't think they need to?
    Mr. Brooks. You always ought to look at everything, because 
otherwise you fall into complacency. I do not share the 
underlying assumption of the GAO that we're applying this 
methodology imprecisely.
    I'm going to defer to Mr. Podonsky on chemical and 
biological.
    Mr. Shays. Here's what I'm going to do. Let me do this. We 
have one, two, three, four, five, six, seven recommendations. 
Do you agree with all of these recommendations; and, if not, 
which ones do you not agree with?
    Mr. Brooks. Yes, sir. I agree that we should examine the 
graded threat approach as it applies to improvised nuclear 
devices, because serious people have suggested we ought to look 
again. But from what I know so far, I remain convinced that we 
are correct.
    The rest of the recommendations, I don't disagree with any 
of them, although I defer to Mr. Podonsky on the comment on 
biological and chemical.
    Mr. Shays. Let me ask you, on all of the seven, where do 
you come down?
    Mr. Podonsky. Well, maybe this is from all of the years of 
my oversight, so we are partially the internal GAO, but I agree 
with all the recommendations that we need to be--that we need 
to look at these carefully.
    Mr. Shays. Are you as confident as Ambassador Brooks is 
that reexamining the current application of the graded approach 
to sites that may have improvised nuclear device concerns, 
that's not--we're not going to find much?
    Mr. Podonsky. I don't share the same convictions that we 
may not find much. I'm a strong believer that we need to 
evaluate it in the light of the year experience that we've had 
since we published the DBT.
    Mr. Brooks. I don't disagree with that.
    Mr. Shays. So, basically, all of these recommendations you 
concur with but maybe not with the same level of enthusiasm.
    When Ambassador Watson heard there was an ambassador 
Brooks, she decided to come down quickly. Why I am grateful is 
it enables me to have her presence here but also to note for 
the record a quorum is present and then be able to take care of 
some business before I recognize Ambassador Watson and--
Congresswoman Watson.
    I ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement in the 
record and the record remain open for that purpose. Without 
objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted include their written statements in the record. 
Without objection, so ordered.
    You have the floor. I thank you for coming.
    Ms. Watson. Thank you so much, Mr. Chairman.
    I just wanted to underscore what the chairman said. I think 
it's essential that we reexamine all of our systems, 
methodology and so on in light of the newer warnings that have 
occurred in the last 48 hours that the target will be the 
United States. They're looking for soft spots.
    I just returned from Vegas, a wedding, and I asked about 
the power outage, and the taxi driver said that wires were cut, 
and it was an inside job.
    So we need to go back over--and I know that procedures were 
probably acceptable, but we cannot be too cautious, and I would 
encourage you--and I think you are all in agreement that the 
recommendations need to be reviewed, and I would encourage all 
different departments and units to just go back over and look 
at their security systems.
    I thank you gentlemen very much. I'm sorry I wasn't here 
for the opening of the hearing, but I want to encourage you to 
support these recommendations sincerely.
    Mr. Shays. I thank the gentlelady very much for, one, 
coming and making that point, and being here.
    Ambassador, both my staff and I had a question on your 
opening statement; and I'm just going to have counsel just ask 
you a question. It was kind of curious.
    Mr. Halloran. Thank you.
    There's a sentence in the second paragraph of your 
submitted statement which you read. It says, ``Today no nuclear 
weapons, Special Nuclear Material, or classified materials are 
at risk anywhere within the nuclear weapons complex.'' I think 
I understand what you're saying, but you're not saying there's 
no risk. Could you decode that for us?
    Mr. Brooks. I am not saying that there is no risk. There's 
always risk. What I am----
    Mr. Shays. He's trying to be like Allen Greenspan.
    Mr. Brooks. Well, what I'm trying to convey is that there 
is no material that is not adequately protected, that the 
people who protect it are well trained and confident, that 
people looking, as Congresswoman Watson said, for soft spots 
would be ill-advised to come to the sites for which I am 
responsible, because they aren't soft spots. But I am also 
trying not to pretend that there isn't work left to be done 
because there is. That's what I was trying to convey with that.
    Mr. Shays. Because the bottom line is, the design basis 
threat, we're not going to even come close to reaching the 
requirements there for a few more years----
    Mr. Brooks. At all of the sites. A couple of them are close 
now.
    Mr. Shays. And you have agreed with GAO that we need to 
reexamine the design basis threat?
    Mr. Brooks. That's correct.
    Mr. Shays. So you're saying we need to reexamine it, and 
you acknowledge with GAO that we're not even going to reach 
that--living up to the existing design basis threat in the 
timeframe we had hoped to; correct?
    Mr. Brooks. I want to be very precise, Mr. Chairman--we are 
going to be prepared to meet our obligations under the 
Secretary's policy about the end of fiscal year 2006. We're 
going to, in some sites, do it sooner. We're going to put 
compensatory measures in where we can't meet it until 2006.
    I do not share the skepticism that I discern in the GAO 
report that we're not going to meet the 2006 date. But that's 
2006. This is 2004. So, obviously, we're going to make 
improvements over the next 2 years. I'm not suggesting and did 
not mean to imply that we have done everything yet.
    Mr. Shays. Let me have Ms. Watson ask a question.
    Ms. Watson. Mr. Ambassador, in the light of the new 
threats, is there a possibility that we would review people who 
are responsible for the various security systems and do an in-
depth review of who they are? You know, I just am very 
sensitive since I was told it was an inside job. So do you 
check those responsible and check them out, too, the new hires 
as well?
    Mr. Brooks. Yes, ma'am. We do that in three ways.
    One is, of course, all the people in positions where they 
could influence this hold ``Q'' clearances, which involves a 
background investigation; and we update that periodically.
    Second, those people who have direct access are in the 
Human Reliability Program, which provides a constant 
monitoring.
    And then, third, as a matter really of nuclear weapons 
safety, in addition to security we use a concept where no 
single individual--call it the two-person rule--where no single 
individual can have an unimpeded access to a weapon in a way 
that would allow causing a detonation.
    So we have a kind of a constant procedure to guard against 
the danger from insiders; and we do look at people, as you 
suggest.
    Ms. Watson. Thank you.
    Let me just ask this: Is the 2006 goal based on the cost of 
reviewing the security? Why 2006?
    Mr. Brooks. Because that appeared to the Secretary to be 
when you could plausibly get there. I mean, there are some 
things that you can speed up by throwing money at them; and 
there are other things that you simply can't. If you want to 
improve physical systems, it takes time. If you want to look at 
protective forces and say they need different equipment and 
need to be trained on it, it takes time. So 2006 was intended 
to recognize that we were trying to make a fairly significant 
improvement in security and that anything that can implement 
overnight isn't hugely significant, so the idea was to give us 
time to get there.
    Ms. Watson. I don't think 2 years is overnight. I just feel 
that in this era where we're being threatened, internationally 
and nationally, too, we might want to speed up.
    I'm from California, and we have earthquakes all the time. 
The former Governor said, well, we're going to have phase one, 
phase two, phase three of resupporting the freeways. Well, 
wouldn't you know, there was an earthquake, and the freeway 
went down, and we were No. 3. It was an earthquake, and it went 
down in the center of my district. So I am saying everyone 
needs to have a No. 1 States, all of the various freeway 
sensitive spots.
    So I'm thinking the same thing during this time when we 
have been threatened and we know these threats are very real. 
Maybe we want to speed that up. And you don't even need to 
respond. I just wanted to throw that out.
    Thank you very much, Mr. Chairman.
    Mr. Shays. Let me just tell you how we're going to 
conclude. The counsel is going to ask two more questions. I'm 
going to invite the other panel up if they want to make a 
comment before we go behind closed doors, because they may want 
to put something on the record that we can ask behind closed 
doors.
    Mr. Halloran. Ambassador Brooks, in your initial list of 
things you wanted to comment on the first panel, you said that 
the nonbermfacility at Y-12 was still adequate. So I would ask 
if you could supply for the record a little more thorough 
explication of that in terms of what you're doing to respond to 
the IG's report and to rebut my simple assumption that 
underground is better than aboveground in terms of what's more 
secure.
    Mr. Brooks. Certainly. That's--I'd be happy to provide that 
for the record.
    Mr. Halloran. Thank you.
    And also a clarification of the----
    Mr. Brooks. Excuse me. May I make a point?
    The assumption that underground is better than above ground 
is perfectly valid. Unfortunately, the difference between the 
two competing designs aren't limited to that, and that's the 
reason why I believe that the design we're now pursuing is 
superior, and we'll lay that out in some technical detail for 
you on the record, sir.
    Mr. Halloran. Thank you.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6313.057
    
    [GRAPHIC] [TIFF OMITTED] T6313.058
    
    Mr. Halloran. The other matter would be in terms of the 
schedule to remove all the material from the TA-18. There was a 
question in the first panel about whether it's just 50 percent 
and the intention is to keep 50 percent there past 2010 or 
whether the plan is to move it all.
    Mr. Brooks. The plan is to move it all. Where 50 percent 
comes from is we're going to remove 50 percent before we get 
the capability relocated to do what we're doing. That will 
reduce the number of storage facilities at TA-18 from two to 
one. That will take away from the diversion scenario, and so 
that will be a real improvement in security. Then we'll move 
the rest of it after we have reestablished the capability 
that's now at TA-18 to Nevada. That's where the 50 percent 
comes from. But we're going to move it all.
    Mr. Shays. Let me ask, is there anything that either of you 
would like to put on the record in this open session before we 
meet later?
    Mr. Podonsky. Yes, Mr. Chairman. I would like to say one 
thing. It's an iteration of what I said earlier.
    We recognize that under your leadership this committee is 
taking a very serious look at national security and security 
within the Department; and as a career member of DOE, not a 
political appointee, I want to emphasize the tremendous focus 
that this Secretary and the Deputy Secretary and Administrator 
Brooks have put on security. I think my colleagues from POGO as 
well as the GAO can testify to the fact that we have not seen 
this before. This is unprecedented within the Department's 
leadership.
    Mr. Shays. Thank you very much.
    I concur with your statement that there's a tremendous 
amount of hard work. I would just say to you in public that I 
believe that we have too many sites, and I believe our sites 
are so antiquated that they pose a risk. I realize, Ambassador 
Brooks, in the process of consolidating, that takes a 
tremendous amount of time, but I don't want you to wait until 
my daughter is 20 years older or if--I want you to at least get 
it done when she's 10 years older. I realize those are 
political decisions as well, but I would hope the Department 
would--the professionals would weigh in so at least there's a 
record so the politicians will have to respond to it.
    I thank you very much, and I'm going to invite the other 
panel to come up just to see--and we'll see both of you a 
little later. Thank you.
    Ambassador Brooks, I understand you may have to leave 
fairly quickly after. Are you going to be there in the 
beginning of that open session?
    Mr. Brooks. I was not intending to be there, Mr. Johnson 
will be there in my place.
    Mr. Shays. That's fine. We understand the reason why, and 
that will be fine. Thank you for being here.
    I want to make sure that there's not anything we should put 
on the record. Ms. Brian, I will start with you, since you're 
sitting down first.
    Ms. Brian. Thank you very much, Mr. Chairman, for the 
opportunity.
    I just wanted to submit for the record both the Inspector 
General's report on systematic cheating of the--by the security 
guards at Y-12 as well as this April 9 memo by Dr. Everet 
Beckner regarding the relocation of materials at TA-18, that 
he's moving 50 percent over 18 months, and the Secretary of 
Energy, however--is that he wants all of it moved in 18 months.
    [Note.--The Department of Energy report entitled, 
``Inspection Report, Protective Force Performance Test 
Improprieties,'' may be found in subcommittee files.]
    Mr. Shays. When we talk about cheating, we do know that 
there has been some cheating. Is the word ``systematic'' used 
by----
    Ms. Brian. They talk about repeated instances.
    Mr. Shays. Repeated instances is the way we'll both define 
it then, OK?
    Ms. Brian. That's fine.
    And I just wanted to make two final responses that were 
made. One is with regard to the materials at Lawrence Livermore 
and the inability of the scientists to perform their work 
unless it is there. Those critical--what's considered by NNSA 
as critical experiments are also taking place at Los Alamos; 
and I'd also like to point out that if--the materials needed to 
also be done by Livermore scientists. If the material were 
moved to the Nevada test site, those few scientists that are 
actually working with those materials could take a 1-hour plane 
ride to Nevada to do that work.
    And the second point I wanted to respond to was in the 
graded approach between a nuclear weapon versus nuclear 
materials, I just wanted to say that you don't need to make the 
materials into the configuration of a weapon to create an 
improvised nuclear device. You can do it within minutes.
    Mr. Shays. Fair enough. I'm not sure Ambassador Brooks 
would disagree with that. If he would, he might want to come 
up.
    Ms. Nazzaro.
    Ms. Nazzaro. Yes, thank you, Mr. Chairman. I have two 
points I'd like to make.
    First, we are very optimistic that--by the fact that DOE is 
now not only accepting but agreeing with our recommendations. I 
think that goes a long way to starting off on the right foot 
here.
    The second is, regarding the discussion you had earlier on 
the postulated threat versus the design basis threat, we do 
want to make note that it is recognized that the postulated 
threat is a worldwide assessment, and it does apply to the 
United States, and in the past DOE has matched one for one, the 
postulated threat with the DBT. This is the first time that 
they had deviated from that.
    Mr. Shays. And the significance of that is?
    Ms. Nazzaro. Why is DOE making a determination now? When 
you have the intelligence community making this postulated 
threat, why is it that DOE thinks that they have more 
information or better information, that they don't need to 
guard against such a threat?
    Mr. Shays. One more question--I guess we will get to that 
in the closed door, and that is very helpful for you to bring 
up, Mr. Noel.
    Mr. Noel. Just one other thing, we were talking about risk 
earlier. I mean, a point that we made in our report is that, 
basically by definition now, the Department facilities are at a 
higher level of risk because they are defending still at the 
old DBT. We now have a new DBT at this level, and it is going 
to take them a couple of years to get there.
    Mr. Shays. And that may not be high enough. Correct?
    Mr. Noel. Well, we are asking them to reexamine that in the 
two specific situations. And so to say that nothing is at risk 
is just not true.
    Mr. Shays. It was; we are giving the Ambassador a little 
poetic license. I think I know what he was trying to say. And I 
don't usually put words in witnesses'--I think what he was 
trying to say is, don't think our sites are vulnerable and an 
easy target. But I do know that the Ambassador knows that we 
would clearly not be going to a new design basis threat, and we 
aren't there yet.
    So, therefore, if we think even that design basis threat is 
a logical threat and we are not there yet, we are at risk of 
not being at that level. But, you know, he is also trying to 
make sure that people don't think that it's an easy target.
    Mr. Noel. No. And we would certainly--these are very 
heavily defended targets by very well-trained people.
    Mr. Shays. Right. But we are, I believe, at risk. And until 
we get these sites exactly to the conditions we want, I think 
we are at risk.
    Thank you all very much. We are adjourning this hearing, 
and we will convene a briefing, not a hearing, behind closed 
doors at 1:30.
    [Whereupon, at 12:05 p.m., the subcommittee was recessed, 
to reconvene at 1:30 p.m., the same day.]

                                 <all>

</pre></body></html>
